Supreme Court of the United States
Office of the Clerk
I First St. NE
Washington, DC 20543-0001

Leonard Overmyer
do 222 Cass St.
Traverse City, MI 49684
231-871-8812

REPLY BRIEF
Leonard Glen Overmyer, III
v. United States
No. 20-7313

July 3, 2021

Due to Co-vid, holiday, and other delays in receiving mail up north, as well as extremely limited
resources, I respectfully file this delayed Reply Brief to the delayed filed Brief of the United States
in Opposition dated May 28, 2021 and received by me in mid-June. (A message left at the Clerk of
the Court on June 24, 2021 (9:41 am) went unretumed, and an attempt to call Ms. Goodwin at the
Solicitor's General office on July 2nd went unanswered.) As I received no form this time from the
Clerk's office for notifying opposing counsel, or even where the Brief In Opposition was even
addressed?, I will cc: this cover and the enclosed Reply to the Solicitor General's,Office.
(

cc: Solicitor General of the United States, Room 5614, Dept. of Justice, 950 Pennsylvania Ave.,
NW Washington, D.C. 20530-0001 Att: Elizabeth B. Prelogar

RECEIVED
JUL 1 3 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

